No. 20-1163

In the Supreme Court of the United States
________
GLOUCESTER COUNTY SCHOOL BOARD, PETITIONER

v.
GAVIN GRIMM, RESPONDENT
________

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________

BRIEF OF PENNSYLVANIA STUDENTS AS
AMICI CURIAE IN SUPPORT OF PETITIONER
________
RANDALL L. WENGER

Counsel of Record
CHERYL LYNN ALLEN
JEREMY L. SAMEK
JANICE MARTINO-GOTTSHALL
Independence Law Center
23 N. Front Street, First Fl
Harrisburg, PA 17101
(717) 657-4990
rwenger@indlawcenter.org

ANDREA L. SHAW
Law Office of
Andrew H. Shaw, P.C.
2011 W. Trindle Rd.
Carlisle, PA 17013
(717) 243-7135
andrea@ashawlaw.com

Counsel for Amici Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... ii
INTEREST OF AMICI CURIAE .............................. 1
INTRODUCTION ...................................................... 1
SUMMARY OF THE ARGUMENT ........................... 2
ARGUMENT .............................................................. 5
I.

Students suffer when privacy facilities are
opened to members of the opposite sex …..…. 5

II.

Sex-separated facilities are justified by the
school’s interest in protecting its students’
bodily privacy................................................. 14

III.

Sex-separated facilities are justified by the
school’s interest in protecting its students
from sexual harassment…………………….... 19

CONCLUSION ......................................................... 22

ii
TABLE OF AUTHORITIES
Cases
Adams v. Sch. Bd.,
968 F.3d 1286 (11th Cir. 2020) ............................. 18
Bostock v. Clayton Cty.,
140 S. Ct. 1731 (2020). .............................4, 9, 19, 22
Brannum v. Overton Cty. Sch. Bd.,
516 F.3d 489 (6th Cir. 2008) ................................. 15
Chaney v. Plainfield Healthcare Ctr.,
612 F.3d 908 (7th Cir. 2010) ..................... 15, 18, 19
City of Phila. v. Pa. Human Relations Comm’n,
300 A.2d 97 (Pa. Commw. Ct. 1973) .................... 16
Davis v. Monroe Cty. Bd. of Educ.,
526 U.S. 629 (1999) ............................................... 20
DeJohn v. Temple Univ.,
537 F.3d 301 (3d Cir. 2008) ............................ 20, 21
Doe v. Boyertown Area Sch. Dist.,
897 F.3d 518 (3d Cir. 2018) ............................ 15, 18
Faulkner v. Jones, 10 F.3d 226 (4th Cir. 1993) ....... 15
Forts v. Ward, 621 F.2d 1210 (2d Cir. 1980) ........... 15

iii
Koontz v. St. Johns River Water Management Dist.,
133 S. Ct. 2586 (2013) ........................................... 17
People v. Grunau, No. H015871, 2009 WL 5149857,
*3 (Cal. Ct. App. Dec. 29, 2009)...................... 16, 17
Poe v. Leonard, 282 F.3d 123 (2d Cir. 2002) ........... 15
Safford Unified Sch. Dist. #1 v. Redding,
557 U.S. 364 (2009) ............................................... 14
St. John’s Home for Children v. W. Va. Human
Rights Comm’n, 375 S.E.2d 769
(W. Va. 1988) ......................................................... 15
State v. Lawson,
340 P.3d 979 (Wash. App. 2014) .......................... 15
United States v. Virginia,
518 U.S. 515 (1996) ......................................... 17, 22
York v. Story, 324 F.2d 450 (9th Cir. 1963)............. 15

Statutes
20 U.S.C. §1681 .................................................... 3, 20
20 U.S.C. §1686 ........................................................ 19
Public School Code of 1949, 24 P.S. §7-740 ............... 7

iv
Regulations
34 C.F.R. §106.33 ............................................. 2, 3, 19
Other Authorities
Ferdinand Schoeman, Adolescent Confidentiality
and Family Privacy, in PERSON TO PERSON 213,
219 (George Graham & Hugh Lafollette eds., 1989)
............................................................................... 16
Samuel T. Summers, Jr., Keeping Vermont’s Public
Libraries Safe: When Parents’ Rights May Preempt
Their Children’s Rights, 34 VT. L. REV. 655, 674
(2010) ..................................................................... 16

1
INTEREST OF AMICI CURIAE1
Amici Curiae are students and former students
from two school districts in Pennsylvania that have
suffered on account of their schools opening up
privacy facilities—locker rooms and restrooms—on
the basis of self-professed gender identity rather than
objective sex. They appear as amici to tell their stories
and to request that schools continue to be permitted
to separate these spaces on the basis of sex to prevent
what happened to them—bodily privacy violations
and sexual harassment.
School policies, like the one that Gavin Grimm
wants to force the Gloucester County School Board to
adopt, harm students like amici. The policies
manipulate students and their bodies, resulting in
students seeing the unclothed bodies of opposite-sex
classmates, sometimes including their genitalia.
These policies also permit opposite-sex classmates to
view them undressed and without consent. Seeing and
being seen by members of the opposite sex can be
extremely distressing and humiliating for any
teenage student. For those who have been victims of
sexual assault or harassment, it can be terrifying and
traumatic.
Some have suggested that amici’s rationale for
sex-separated privacy facilities is the belief that
transgender students have ill-intent in desiring to use
No counsel for a party authored this brief in whole or in part,
and no party, party’s counsel, or any person other than amici
curiae or their counsel contributed money intended to fund
preparation or submission of this brief. This brief is filed with
consent of the parties. All parties were given timely notice of
amici’s intent to file.
1

2
opposite-sex spaces. But that is not the point amici
are making; they speak to this issue based on the
nature of bodily privacy. By way of illustration, when
a school tells a male maintenance worker not to
replace a leaking faucet while girls are using the
locker room, it is not because the school believes that
maintenance workers are bad people and would do
something deviant. It is because the male
maintenance worker’s presence violates the privacy of
the girls using the facility. The girls’ privacy interests
do not disappear based on the non-nefarious intent of
the man in the privacy facility.
Amici’s experience will aid this Court’s
understanding of the implications of what is being
demanded of Gloucester County School Board.
SUMMARY OF THE ARGUMENT
Gloucester County School Board was sued for
alleged Equal Protection and Title IX violations.
However, the school treated each student the same on
the basis of sex for purposes of privacy facility usage,
which has long been the practice in America and
which has explicitly been allowed under Title IX. See
34 C.F.R. §106.33 (permitting “toilet, locker room, and
shower facilities” to be separated on the basis of sex).
Privacy facilities are not separated on the basis of
sex because sex is a protected class (such that if we
adjust the meaning of sex, the new meaning should
form the basis for separation), but in spite of the fact
that sex is a protected class. The existence of “sex” as
a protected class generally forbids separation based
on sex. It is only our need for bodily privacy from
members of the opposite sex—due to the anatomical

3
differences between the two halves of humanity—that
we have and legally permit separate spaces.
Grimm asks this court to deem separation on the
basis of sex illegal, and instead to replace sex-based
distinctions and require separation of privacy
facilities based on gender identity. The claim is that
those who assert a cross-sex identity must be affirmed
in that identity by being accepted as a member of that
sex. But affirmation of affiliation with a group cannot
justify separate facilities, whether it is affiliation
based on gender identity or affiliation based on race.
Group affiliation is not a permissible reason to
separate these facilities— privacy is.
Furthermore, a girl’s right to privacy from a
member of the opposite sex belongs to her, and should
not be contingent on what a male believes about
gender, and vice versa. Yet the inevitable result of the
lower court’s decision is that a girl’s right to privacy
suddenly springs into existence or ceases to exist,
merely based on what males believe about their own
gender.
From a policy perspective, gender identity
functions differently in the context of privacy facilities
than it does in the context of employment decisions.
In the employment context, “sex” and “gender
identity” can co-exist in the sense that a prohibition
against firing people based on gender identity does
not mean a person loses their protections from being
fired based on their sex. In Title IX, and particularly
34 C.F.R. §106.33,2 the opposite is true as “sex” and
Because sex, rather than gender identity, is the subject of both
the exemption found in 20 U.S.C. §1681 and the regulation
2

4
“gender identity” are mutually exclusive. Expanding
class protections in hiring takes away no protections
from existing classes, but with privacy facilities it is a
zero-sum game. Either the spaces are separated on
the basis of sex or on the basis of gender identity, but
the moment that they are separated by gender
identity, the separation is by definition and in
practice, no longer on the basis of sex.
This Court’s decision in Bostock v. Clayton Cty.,
140 S. Ct. 1731 (2020), does not justify the policy
change that Gavin Grimm demands. Instead, Bostock
explains why Grimm was denied access to the male
privacy facilities. But for the fact that Grimm is
biologically female, Grimm would have been able to
use the male privacy facilities at the school. Thus,
based on the logic of Bostock, this constitutes
discrimination on the basis of sex. Yet that sort of sex
discrimination occurs every time a woman is
prohibited from entering a male privacy facility. Sex
based distinctions in these settings are not invidious
but permissible due to the government interest at
stake.
The experience of students in other districts—
districts that did not protect these students’ most
basic rights—demonstrates the importance of what
the Gloucester County School Board has done.
implementing it, a bathroom policy treating women who identify
as men the same as all other biological women cannot violate
Title IX. This principle is true regardless of whether a woman
identifies as male, female, demigender, pangender, or something
else.

5
Schools are in a difficult position because of the
conflict between federal guidance and executive
orders on the one hand, and their constitutional and
statutory responsibilities on the other. This Court
should take this case to help resolve these difficulties.
Ultimately, the school’s decision to separate multiuser privacy facilities on the basis of sex is justified
based on its interest in preventing the violation of the
bodily privacy of and preventing the sexual
harassment of its students.
ARGUMENT
I.

Students suffer when privacy facilities
are opened to members of the opposite
sex.

Madison Williams3 is a student at the Wayne
Highlands School District in Pennsylvania. While a
sophomore, she removed her clothes in the locker
room to prepare for gym class. Before she had a
chance to put her gym clothes on, she was shocked to
hear a male voice. Madison turned and experienced
something that no 15-year-old should have to endure:
an opposite-sex classmate was staring at her in her
panties. She was also aghast to see the student
wearing nothing but female panties with his male
genitalia clearly visible. This student was also known
to be exploring his gender identity—unsure of his selfidentity—and also attracted to females.

Most of the students use pseudonyms for protection from
ridicule for exposing the sexual harassment that they have
endured.
3

6
Madison did not consent to viewing her male
classmate’s genitalia and is now forced to carry that
image in her mind. The incident replays itself as she
is unable to get the image of the male student
exposing his genitalia to her out of her head. She
experiences feelings of shame and, because she gave
no consent, profound violation. This not only angers
her but causes her stress as she feels vulnerable to
further exploitation by school officials.
Likewise, she cannot get the thought out of her
mind that a male classmate had seen her undressed
in a locker room, a place where she expected privacy
from any and every male. She now has to live with the
fact that a teenage male has stolen the mental image
of her body in a state of undress—an image that she
did not consent to give—and she suffers knowing this
male classmate is free to fantasize on it. She also
experiences frustration knowing that the mental
image stolen from her can never be returned.
Despite this incident, the school refused to
remove the male student from the girls’ privacy
facilities, forcing a 10th-grader to navigate a sexually
harassing environment. The male student eventually
agreed to change behind a curtain in the locker room,
but that hardly solved the problem as he was
essentially invited to view the girls’ unclothed bodies
while they were changing or showering as he entered
and exited the facility.
The result was that Madison was unable to
meaningfully access a space set apart by
Pennsylvania law to be used exclusively by women

7
and girls.4 She would wait for the boy to be done in
the locker room, always anxious that he would walk
back in. It made her start gym class late and delayed
her return to academic classes.
The school failed to recognize the sexual
mistreatment she endured—an unwanted memory of
male genitalia and a stolen image of her unclothed
body—and because school policy treated a girl’s
privacy rights as completely contingent on what a boy
believes about the nature of gender, the situation
could not be remedied. Instead, she was forced out of
the facilities and subjected to ridicule for standing up
to the sexual harassment, an inevitable consequence
of reengineering the use of privacy facilities on the
basis of gender identity rather than sex.
Megan Miller also discovered the same male
student directly across from her locker in the girls’
locker room while getting dressed for cross-country.
She was horrified at the thought of undressing in
front of a male—with that image in his mind—and
was outraged at seeing him undressed. Despite
Pennsylvania law setting this space apart to be used
exclusively by the female sex, she was forced to flee,
hide, and hurriedly dress outside of the presence of a
male. Megan feels violated and humiliated by the
invasion of her bodily privacy and suffers an ongoing
sense of vulnerability.
This policy did not just affect locker rooms.
Instead, Madison, Megan, and other female students
Public School Code of 1949, 24 P.S. §7-740 (requiring that
facilities “shall be suitably constructed for, and used separately
by the sexes”).
4

8
like Kelly Smith worried about whether the male
student would enter the restroom while they used it.
They were frequently stressed and on edge, feeling
like they could not use the restroom without thinking
about whether the male was present or would come in
at any time. They limited fluids and often opted to
hold their bladders rather than use the school’s
restrooms. This caused an ever-present distraction
throughout the school day, including during
instructional time. When they were forced to use the
facilities, they would scan the restroom for the
presence of the male classmate and then hurriedly
address their hygiene needs in the hope that they
would not be confronted by the male in the restroom
or realize that the male student was in an adjacent
commode stall.
The girls knew that the male student often
lingered in the girls’ restroom, which made it difficult
to find an opportunity to use it without encountering
the male student. By allowing male students to use
the restrooms, the girls did not feel protected by the
school but left to navigate a sexually harassing
situation on their own.
In allowing the male student to use the girls’
privacy facilities, the school invited him to dictate the
terms by which females could use these facilities —
thus requiring them to waive their right to bodily
privacy and subjecting them to sexual harassment if
they wished to have full use of the facilities that were
designated, by state law, for their exclusive use.
Girls are exploited by public authorities when
schools coerce them to change clothes or do any of the
activities that are uniquely appropriate inside of a

9
girls’ restroom, locker room, or shower facility when a
male is present. Societies have long suffered from
women and girls being used to satisfy male
expectations. Yet, school policy effectively teaches
girls that a male’s beliefs about himself are more
important than the girls’ dignity, privacy, and sexual
autonomy. Schools should never manipulate girls as
objects to affirm boys’ beliefs about their own sexual
identities, especially when doing so causes girls to
fear being the object of a classmate’s sexual arousal.
For girls, encountering any boy in a vulnerable
place where they may be undressed can be a
traumatic experience and, for sexual assault
survivors, it can trigger further psychological injury.
Bostock, 140 S. Ct. at 1779 (Alito, J., dissenting).
Moreover, the increased vividness accompanying
real-time exposure to a person of the opposite sex who
is naked or in their underwear is even more arousing
than a mere picture, and knowing that a member of
the opposite sex obtained such a potentially arousing
and unconsented-to image can be deeply troubling to
those who have been exposed. By exempting privacy
facilities from the general prohibition of sex
discrimination in Title IX, Congress acted to
eliminate that harm, as well as to protect the privacy
and modesty interests of vulnerable students.
* * *
Joel Doe was a junior at the Boyertown Area
School District changing in the locker room for gym
class when he encountered a female changing with
him. The female was wearing nothing above her waist
other than a bra, and Joel was wearing only his
underwear.

10
The situation was shocking and confusing for
Joel, because he did not expect to view a female in a
state of undress or to be viewed by a female wearing
only underwear especially since, based on our
traditions and the sign on the door, he expected the
space to be separated by sex. Something was stolen
from Joel that day because he did not give consent to
be seen by the opposite sex in his underwear.
Joel experienced shame and loss of dignity by the
school’s action in opening up male spaces, and
encountered ongoing vulnerability and harassment.
Though difficult for a student to navigate a sexually
harassing environment, Joel brought numerous
students with him to the principal to find out what to
do. Even then, the school’s response was callous,
telling the boys to “tolerate” changing with a female
and repeatedly admonishing the boys to make the
arrangement as “natural as possible.”
Jack Jones, a junior at the time, learned about the
policy as Joel did: in his underwear in the locker room
while encountering a female student. Like Joel, Jack
experienced a lack of dignity being seen in a state of
undress without his consent. The Jones family
learned from the school administration that this was
happening because the school wrongly believed it was
required to do so under federal law.
The anxiety and embarrassment that Joel and
Jack felt was not limited to the locker room. They and
other boys were often forced to avoid using the
restroom out of fear of encountering a female in the
male privacy facilities.

11
Alexis Lightcap, who was also a junior at
Boyertown, encountered a male student in the girls’
restroom. She left, running out of the facility because
of her shock of encountering a male in a place that she
considered a safe place for females. She reported the
incident, because she had no idea that the school was
opening up privacy facilities if students identified
with the opposite sex. The school did not disclose the
policy change to students or their parents. However,
for Alexis and other girls at the school, like Macy Roe
and Chloe Johnson, the threat of encountering a male
in these spaces meant losing meaningful access to
privacy facilities, which exist precisely to provide a
place to disrobe and perform certain functions outside
the presence of members of the opposite sex.
Many girls like Alexis used not only locker rooms
but restrooms for changing. They understood what we
all do about such spaces—that privacy from the
opposite sex starts at the door of the privacy facility—
not at the stall. So whether in the common areas of
the locker rooms or the restrooms, girls would
completely undress in preparation for sports or to
change clothes before leaving for the day. But now
they lack meaningful access to spaces that were set
apart to be used exclusively for women. They worried
when they needed to undress to change or to use the
facilities because stall doors—notoriously with gaps—
only provide the minimal level of privacy expected
from members of the same sex, not the real privacy
expected from members of the opposite sex.
This resulted in Alexis, Macy, Chloe, and others
avoiding liquids so that they would not have to use
facilities with a biological male. They were forced to

12
navigate the use of female privacy facilities with
stress, fear, and ongoing vulnerability. For some, like
Alexis and Joel, it meant that they left their high
school altogether to pursue education elsewhere due
to the ongoing sexual harassment they were subject
to by the school on account of the policy.
The experience of these students is repeated
thousands of times over because many schools, like
the two above, do not even inform their students that
a member of the opposite sex will be using their
privacy facilities because, according to these schools,
a boy identifying as a girl is a girl just like any “other”
girl (or vice versa). Because girls need not be warned
that another girl will be with them, schools view it as
discriminatory to inform students that a boy
identifying as a girl will share that space with girls.
* * *
The difficulty that school districts are facing
should not be minimized, especially when confronted
with guidance documents and executive orders that
are in conflict with both our traditions and the
constitutional and statutory safeguards for our
children. What’s worse, the philosophical framework
for assessing best practices has been poisoned by a
false dichotomy—choosing between the best interest
of transgender students, who are often described as
emotionally fragile, and those who object to sharing
privacy facilities with any member of the opposite sex
for the reasons described above.
In reality, our American experience shows that
this need not be a zero-sum game. Every child
deserves respect and a safe, nurturing learning

13
environment. That is best accomplished when we give
schools the tools to do what we do well in America,
working together collaboratively, not in spite of but
because of our differences. Our experience with our
religious differences is instructive. Many Americans
find their core identity in their religious beliefs and
commitments. In the context of religion, we don’t force
persons to agree with others’ beliefs in order to show
respect to them. Americans fervently disagree with
each other on religious commitments, but still
maintain a mutual respect for each other. Sometimes
religious persons need accommodations for those
beliefs, in schools and in the workplace, but we
understand those accommodations must be
reasonable, never violating others’ rights. In the same
way we do in the context of religion, we should
facilitate a loving, respectful, nurturing environment
for all students, regardless of gender identity. But it
is both unreasonable and unnecessary to end sexbased distinctions in privacy facilities.
Unfortunately, some suggest that it’s out of
animus towards transgender classmates that
students object to sharing privacy facilities. To be
clear, amici welcome transgender students to share
privacy facilities with them so long as they are the
same biological sex. There is no more validity, for
instance, to the claim that female amici hate male-tofemale transgender students because they object to
sharing privacy facilities than that they hate any
male student because they don’t want to share such
spaces. It is simply an issue of the importance of
bodily privacy that such spaces are intended to afford.

14
Schools have a duty to protect all students.
However, as explained below, schools fail that duty
when they eliminate sex-based distinctions in privacy
facilities. Schools can and must do both— creating a
loving, respectful, nurturing environment, including
such reasonable accommodations that will serve their
students, while maintaining sex-based distinctions in
those places where sex-based separation is necessary
for bodily privacy.
II. Sex-separated facilities are justified
by the school’s interest in protecting its
students’ bodily privacy.
Gloucester County School Board’s separation of
privacy facilities on the basis of sex is justified by the
school’s interest in protecting its students’ bodily
privacy in relation to members of the opposite sex.
Even in the context of the Fourth Amendment where
there is a governmental interest in policing
contraband, strip searches—including strip searches
of someone of the same sex—are limited due to
“reasonable societal expectations of personal privacy.”
Safford Unified Sch. Dist. #1 v. Redding, 557 U.S.
364, 374 (2009). This is especially true in the school
setting where “adolescent vulnerability intensifies
the patent intrusiveness of the exposure.” Id. at 375.5
The right to bodily privacy, of course, is not
limited to searches. Even in a case brought by the
Safford distinguished undressing for gym class from
undressing for a search, id., but that was in the context of
undressing in front of other students of the same sex, not what
amici and others have experienced due to a gender identity
ideology that conflates and supplants sex.
5

15
Boyertown amici, the Third Circuit correctly
recognized a constitutional right to “privacy in a
person’s unclothed or partially clothed body.” Doe v.
Boyertown Area Sch. Dist., 897 F.3d 518, 527 n.53 (3d
Cir. 2018) (citing Brannum v. Overton Cty. Sch. Bd.,
516 F.3d 489, 494, 498 (6th Cir. 2008); Poe v. Leonard,
282 F.3d 123, 136 (2d Cir. 2002); York v. Story, 324
F.2d 450, 455 (9th Cir. 1963) (“The desire to shield
one’s unclothed figure from view of strangers, and
particularly strangers of the opposite sex, is impelled
by elementary self-respect and personal dignity.”)).
The interest is so strong it is even preserved for
inmates. Forts v. Ward, 621 F.2d 1210 (2d Cir. 1980)
(female inmates had a privacy interest in not being
seen completely or partially unclothed by male
guards).
On these principles rests “society’s undisputed
approval of separate public restrooms for men and
women based on privacy concerns. The need for
privacy justifies separation. . . .” Faulkner v. Jones, 10
F.3d 226, 232 (4th Cir. 1993). That is why “same-sex
restrooms [and] dressing rooms” are allowed “to
accommodate privacy needs” and why “white only
rooms,” which have no basis in bodily privacy, are
illegal. Chaney v. Plainfield Healthcare Ctr., 612 F.3d
908, 913 (7th Cir. 2010). Indeed, females “using a
women’s restroom expect[] a certain degree of privacy
from . . . members of the opposite sex.” State v.
Lawson, 340 P.3d 979, 982 (Wash. App. 2014).
Specifically, teenagers are “embarrass[ed] . . . when a
member of the opposite sex intrudes upon them in the
lavatory.” St. John’s Home for Children v. W. Va.
Human Rights Comm’n, 375 S.E.2d 769, 771 (W. Va.
1988).

16
Because of bodily privacy protections, schools
cannot force the minors in their care to endure the
risk of unconsented intimate exposure to the opposite
sex as a condition for using the very facilities set aside
to protect their privacy from the opposite sex. Nor
should they. “[P]rivacy matters” to children and is
“central to their development and integrity.” Samuel
T. Summers, Jr., Keeping Vermont’s Public Libraries
Safe: When Parents’ Rights May Preempt Their
Children’s Rights, 34 VT. L. REV. 655, 674 (2010)
(quoting
Ferdinand
Schoeman,
Adolescent
Confidentiality and Family Privacy, in PERSON TO
PERSON 213, 219 (George Graham & Hugh Lafollette
eds., 1989)). Allowing opposite-sex persons to view
adolescents in restrooms and locker rooms, risks their
“permanent emotional impairment” under the mere
“guise of equality.” City of Phila. v. Pa. Human
Relations Comm’n, 300 A.2d 97, 103 (Pa. Commw. Ct.
1973).
Schools have separate facilities for boys and girls
to protect students’ bodily privacy rights.
“Unquestionably, a girls’ locker room is a place where
a normal female should, and would, reasonably expect
privacy, especially when she is performing
quintessentially personal activities like undressing,
changing clothes, and bathing.” People v. Grunau, No.
H015871, 2009 WL 5149857, *3 (Cal. Ct. App. Dec. 29,
2009). Grunau argued that briefly viewing a teenager
showering in a full swim suit, the same thing she was
wearing while swimming where members of both sex
could see her, would not shock or irritate the average
person. The Grunau court vigorously disagreed: “[A]
normal female who was showering in a girls locker
room would unhesitatingly be shocked, irritated, and

17
disturbed to see a man gazing at her, no matter how
briefly he did so.” Id. It further explained: “defendant
blithely ignores an important fact: where his conduct
took place. . . . [The victim] was on a high school
campus, out of general public view, and inside a girls’
locker room, a place that by definition is to be used
exclusively by girls and where males are not allowed.”
Id.
The important constitutional principle of bodily
privacy should not be discarded even as we seek to
eliminate class-based distinctions. For instance, in
the context of a case involving a sex-based admissions
policy, this Court noted that “[a]dmitting women to
the Virginia Military Institute would undoubtedly
require alterations necessary to afford members of
each sex privacy from the other sex in living
arrangements. . . .” United States v. Virginia, 518 U.S.
515, 551 n.19 (1996). In the same way, schools must
treat transgender students, like all students, with
dignity and respect. But schools cannot ignore
important bodily privacy issues any more than the
Virginia Military Institute could do so when
eliminating sex-based distinctions on that campus.
Unfortunately, some schools have violated bodily
privacy while arguing that the right can be protected
by providing separate facilities for students who want
bodily privacy. But even that violates student privacy,
because a right—in this case use of multi-user privacy
facilities set apart on the basis of sex—cannot be
conditioned on waiving a constitutional right—the
right to bodily privacy. Koontz v. St. Johns River
Water Management Dist., 133 S. Ct. 2586, 2594 (2013)
(noting the unconstitutional conditions doctrine

18
protects constitutional rights “by preventing the
government from coercing people into giving them
up”).
Gloucester County School Board did what it was
required to do under the constitution and Title IX—
separate facilities used by its minor students on the
basis of biological sex. Indeed, if there is no right for
a school to separate facilities on this basis, there is no
right to separate facilities on any basis. The real
anatomical differences between the sexes—relevant
in places where we disrobe—is the only appropriate
justification for separating groups of people. Chaney,
612 F.3d at 913.
Because bodily privacy rights in privacy facilities
depend on our bodily differences, a girl’s right to
bodily privacy does not spring into existence or cease
to exist depending on what a male believes about his
gender (or vice versa). Her right to bodily privacy is
hers alone. Students should never encounter
members of the opposite sex while disrobing,
showering, urinating, defecating, and, in the case of
females, while changing tampons and feminine
napkins. The axiomatic nature of this statement is
multiplied when the student is a minor in a custodial
setting.
Some courts have sidestepped these important
issues by simply declaring that girls who identify as
boys are boys—just like any boy. See, e.g., Adams v.
Sch. Bd., 968 F.3d 1286, 1293 n.2 (11th Cir. 2020)
(determining that Drew Adams, a biological female
that identifies as a male, is “like any other boy”);
Boyertown, 897 F.3d at 532-33 (“We have already
explained that the presence of transgender students

19
[i.e. females who identify as boys] in these spaces does
not offend the constitutional right of privacy any more
than the presence of cisgender students [i.e. boys] in
those spaces.”).
Not only does that ignore the obvious and
relevant biological realities discussed above, but it
flies in the face of the conceptual framework this
Court set forth in Bostock. Despite the urging of
advocacy groups, this Court did not conflate sex with
gender identity, 140 S. Ct. at 1739, but applied a butfor test, id. at 1742.
The application of Bostock is that but for the fact
that Gavin Grimm is biologically female, Grimm
would be able to use the male privacy facilities. Thus
Grimm was subjected to a sex-based restriction. Yet
that is precisely the kind of sex-based restriction that
federal law encourages. E.g., 20 U.S.C. §1686
(providing for separate living facilities) and 34 C.F.R.
§106.33 (providing for separate bathrooms). And it is
consistent with our long history of separating privacy
facilities on the basis of sex due to the anatomical
differences of the two sexes. While sex-based
distinctions are subject to heightened scrutiny, the
government’s interest in protecting bodily privacy
justifies the distinction. See, e.g., Chaney, 612 F.3d at
913.
III.

Sex-separated facilities are justified by
the school’s interest in protecting its
students from sexual harassment.

Title IX prohibits schools from denying students
participation in, or the benefits of, any education
program or activity “on the basis of sex.” 20 U.S.C.

20
§1681(a). Whatever else Title IX prohibits, “students
must not be denied access to educational benefits and
opportunities on the basis of gender.” Davis v. Monroe
Cty. Bd. of Educ., 526 U.S. 629, 650 (1999). For
example, Davis involved student-on-student sexual
harassment in which male students physically
threatened female classmates, preventing them from
using a “particular school resource.” Id. at 650–51.
The situation described in Davis mirrors what
happened to amici and many others nationwide,
though without the threats of physical violence. By
allowing students to access the opposite-sex privacy
facilities, the schools prevented amici, both male and
female students, from using a “particular school
resource”—the locker rooms and multi-user
restrooms.
Putting students in a context in which they will
find themselves undressed in the presence of a
member of the opposite sex, who is also undressed,
constitutes harassment that is “severe, pervasive, or
objectively offensive” to undermine their educational
experience. See, e.g., DeJohn v. Temple Univ., 537
F.3d 301, 316 n.14 (3d Cir. 2008) (setting forth the
harassment standard). It is harassment to expect
students, themselves minors, to navigate the
situation schools place them in.
There is no avoiding countless students
undergoing this harassment without any warning
since the same fiction (that a girl who identifies as a
boy is a boy like any other boy) that counsels cross-sex
usage of these facilities also counsels that it would be
discrimination to warn boys that a girl who identifies
as a boy will be present. Therefore, without warning,

21
students are regularly and repeatedly learning about
school policies with their pants down. At that point, it
is too late for a student to retrieve a stolen image of
their unclothed body— an image that a student of the
opposite sex would be free to fantasize on. And it is
too late for a student to prevent an image of an
unclothed classmate of the opposite sex from being
seared in that student’s mind. Schools not only
facilitate but encourage students to be manipulated
in sexually charged ways.
Litigants need not show that harassment be
severe, pervasive, and objectively offensive, but only
that it is “severe, pervasive, or objectively offensive,”
id. (emphasis added), but when schools adopt these
policies, it is all three. The official expectation that
children of the opposite sex undress in front of each
other is both severe and objectively offensive. And a
school policy that invites such conduct, as opposed to
a random and unwanted occurrence at a school, is by
definition pervasive. Finally, this detracts from
students’ educational experience because they are
effectively denied access to school resources that are
set apart for their sex due to the anatomical
differences between the sexes.
Schools that open privacy facilities to the opposite
sex subject their students to sexual harassment. Like
most forms of sexual harassment, there is an
unhealthy power differential between schools and the
students who are pressured to share privacy facilities
in this way. Many students are exceedingly
uncomfortable, but at that age they would often
rather endure the sexual harassment than risk the
harassment and stigma that comes with going against

22
the authority of their school on this issue. Students
should not have to navigate sharing privacy facilities,
places that are set apart for the removal of clothing
outside of the presence of the opposite sex. Gloucester
County School Board’s interest in preventing this
kind of sexual harassment, therefore, is sufficient to
justify its sex-based separation of privacy facilities.
CONCLUSION
The Court should grant certiorari because this
case presents the very issue—bodily privacy in
privacy facilities—that Bostock said would be taken
up on another day. 140 S. Ct. at 1753. Failure to do so
would send the signal to other school districts that
they can be sued, without recourse, when seeking to
carry out twin duties—protecting the bodily privacy
of their students and preventing sexual harassment.
Schools can and must show respect to all students,
regardless of gender identity, while carrying out these
duties. As this Court recognized in United States v.
Virginia, supra, these objectives should not be viewed
as being in tension. In the absence of resolving this
case in favor of the school, students will suffer.

23
Respectfully submitted,
RANDALL L. WENGER
Counsel of Record
CHERYL LYNN ALLEN
JEREMY L. SAMEK
JANICE MARTINO-GOTTSHALL
Independence Law Center
23 N. Front Street, First Fl
Harrisburg, PA 17101
(717) 657-4990
rwenger@indlawcenter.org

ANDREA L. SHAW
Law Office of
Andrew H. Shaw, P.C.
2011 W. Trindle Rd.
Carlisle, PA 17013
(717) 243-7135
andrea@ashawlaw.com

Counsel for Amici Curiae

Dated: March 26, 2021

